No. 19-247
In the

Supreme Court of the United States
__________________

CITY OF BOISE, IDAHO,
Petitioner,
v.
ROBERT MARTIN, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

__________________
BRIEF OF THE CITY OF ABERDEEN,
WASHINGTON AMICUS CURIAE
IN SUPPORT OF THE CITY OF BOISE
__________________
JOHN EDWARD JUSTICE
JEFFREY SCOTT MYERS
Law, Lyman, Daniel,
Kamerrer & Bogdanovich, P.S.
Post Office Box 11880
Olympia, WA 98508-1880
(360) 754-3480
(360) 357-3511 (fax)
jjustice@lldkb.com
jmyers@lldkb.com

MARY PATRICE KENT
Corporation Counsel
Counsel of Record
Office of Corporation Counsel,
City of Aberdeen
200 East Market Street
Aberdeen, WA 98520
(360) 537-3233
(360) 532-9137 (fax)
pkent@aberdeenwa.gov

Counsel for Amicus Curiae
City of Aberdeen, Washington
in Support of Petition of City of Boise
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

Context/Background . . . . . . . . . . . . . . . . . . . . 3

II.

Aberdeen Experience: River Street Property
..................................... 5
A. Background . . . . . . . . . . . . . . . . . . . . . . . . 5
B. Monroe, et al. v. City of Aberdeen, et al. . . 8
C. Aitken, et al. v. City of Aberdeen . . . . . . . . 8

III.

Martin does not clearly define “available
overnight shelter” . . . . . . . . . . . . . . . . . . . . . 12

IV.

Martin has impermissibly expanded
prohibitions against criminalization to
generally applicable protections of public
health and welfare. . . . . . . . . . . . . . . . . . . . . 13

V.

Martin has created unintended consequences
including appropriating of public property for
personal use; and shifting responsibility for
local management of homelessness to the
federal judiciary. . . . . . . . . . . . . . . . . . . . . . . 15
A. Martin has encouraged appropriation of
public property by the homeless. . . . . . . . 15

ii
B. Martin is causing a shift in responsibility
for local policy and management to the
federal judiciary. . . . . . . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
APPENDIX
Appendix A Parcel Map . . . . . . . . . . . . . . . . . . App. 1
Appendix B River Street Photographs . . . . . . . App. 2
Appendix C Ordinance 6645 . . . . . . . . . . . . . . . App. 4
Appendix D Map of Identified Camping Areas
(fold-out exhibit) . . . . . . . . . . . . . App. 10

iii
TABLE OF AUTHORITIES
CASES
Austin v. United States,
509 U.S. 602 (1993). . . . . . . . . . . . . . . . . . . . . . . 14
Catron v. City of St. Petersburg,
658 F.3d 1260 (11th Cir. 2011). . . . . . . . . . . . . . 17
Ingraham v. Wright,
430 U.S. 651 (1967). . . . . . . . . . . . . . . . . . . . . . . 14
Martin v. City of Boise,
920 F.3d 584 (9th Cir. 2019). . . . . . . . . . . . passim
STATUTES AND REGULATIONS
Aberdeen Ordinance 6645 (May 8, 2019) . . . . . . . . . 9
Aberdeen Municipal Code 12.41 (2018). . . . . . . . . . . 8
Aberdeen Municipal Code 12.44.030 (2006) . . . . . . . 9
Aberdeen Municipal Code 12.46 (2019). . . . . . . . . . . 8
Aberdeen Municipal Code 12.46.040.A.4 . . . . . . . . . 8
Aberdeen Municipal Code 12.46.045.B . . . . . . . . 8, 10
Aberdeen Municipal Code 12.46.050 . . . . . . . . . . . . 13
Wash. Rev. Code § 7.80.130.2 (2002). . . . . . . . . . . . 13
Wash. Rev. Code § 43.168.020 (2009) . . . . . . . . . . . . 1

iv
OTHER AUTHORITIES
Daily Olympian, Homeless camps sprouting,
growing throughout downtown Olympia,
https://www.theolympian.com/news/local/
article220251925.html . . . . . . . . . . . . . . . . . . . . 17
https://esd.wa.gov/labormarketinfo/countyprofiles/grays-harbor. . . . . . . . . . . . . . . . . . . . . . . 3
https://esd.wa.gov/labormarketinfo/monthlyemployment-report . . . . . . . . . . . . . . . . . . . . . . . . 3
https://www.commerce.wa.gov/servingcommunities/homelessness/annual-point-timecount/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
https://www.huduser.gov/portal/datasets/cp.html . . 4
https://www.huduser.gov/portal//Publications/
pdf/HUD-006102.pdf. . . . . . . . . . . . . . . . . . . . . . . 3
http://www.thedailyworld.com/news/aberdeen-dealswith-fallout-from-riverfront-camp-restrictions/. . 4
https://www.thedailyworld.com/news/homelesscamped-along-chehalis-told-to-bug-out-again/ . . 4
http://www.thedailyworld.com/news/womans-legssevered-by-train-in-accident-near-aberdeenhomeless-camp/ . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
KBKW, City of Aberdeen Seeks Grays Harbor
Transit Property for Homelessness Mitigation
Site, https://kbkw.com/city-of-aberdeen-seeksgrays-harbor-transit-property-for-homelessnessmitigation-site/ . . . . . . . . . . . . . . . . . . . . . . . . . . 18

1
INTEREST OF AMICUS CURIAE
The City of Aberdeen, Washington (“Aberdeen” or
“City”) is a Washington municipal corporation, with a
population of 16,896.
It is identified as an
“economically distressed community” under
Washington state law (Wash. Rev. Code § 43.168.020
(2009)). There are no public indoor shelters for
unsheltered or homeless persons in Aberdeen. There is
limited private shelter space that may or may not meet
the definition of “available overnight space” in Martin
v. City of Boise, 920 F.3d 584 (9th Cir. 2019)). There is
only one permitted encampment for unsheltered or
homeless persons in Aberdeen.1
Aberdeen supports and sympathizes with the
discussion presented by the City of Boise’s petition for
certiorari addressing the serious challenges faced by
large cities in managing their homeless issues.
However, Aberdeen, as a smaller economically
distressed city is forced to deal with the very same
issues with significantly fewer resources.
Since the decision below, the City has faced two
separate suits in the Western District of Washington
(Monroe, et al. v. City of Aberdeen, et al., 3:18-cv-05949RBL (2019); and Aitken, et al v. City of Aberdeen, 3:19-

1

The City of Aberdeen, through its City Attorney, files this amicus
curiae brief pursuant to U.S. Supreme Court Rule 37.4. Counsel
of record Mary Patrice Kent for City of Aberdeen provided written
notice of intent to file an amicus curiae brief with counsel of record
for each part via email on September 12, 2019. Both parties have
filed blanket consents with the Court (September 5, 2019 and
September 6, 2019).

2
cv-05322-RBL (2019)) in its attempt to address
conditions of the largest unpermitted homeless
encampment here. As outlined in this brief the City
has been severely hampered by the Ninth Circuit’s
decision below in our efforts to protect the health,
safety, and welfare of all of our citizens when using
public spaces.
SUMMARY OF ARGUMENT
Certiorari should be granted because: Martin v. City
of Boise, 920 F.3d 584 (9th Cir. 2019) has barred
enforcement of laws prohibiting camping on public
property without clearly defining what it means for a
city to have available overnight shelter space; has
impermissibly expanded prohibitions against
criminalization to statutory restrictions imposed for
public safety and welfare considerations of the
community as a whole; and, the Ninth Circuit’s
decision has led to unintended consequences whereby
unsheltered and homeless individuals are able to
appropriate public property for their own use thereby
denying the general public’s enjoyment of its intended
purpose.
Martin is being used to permit wholesale
appropriation of public property, and to prevent the
City from removing unsheltered and homeless persons
from public property, regardless of what jurisdiction
owns the property or what the health, safety, or
welfare impacts may be.
Martin prevents the City’s proper police authority
to maintain public safety in the event that unsheltered
and homeless people demand access to specific parcels

3
absent “available shelter” which is inadequately
defined and cannot be practically determined by city
officials responsible for protecting public health, safety
and welfare. Together, these limitations have the
unintended consequence of depriving public landowners of trespass protections afforded to private landowners.
ARGUMENT
I.

Context/Background

Aberdeen’s ability to reasonably respond to all of
our citizens’ health, safety, and welfare considerations
is a challenge in the best of times. Faced with
economic distress, the decision of the Ninth Circuit in
Martin poses new challenges to deal with a burgeoning
regional population of homeless in our community.
Historically, Aberdeen’s employment was based
around natural resource economies of timber and
fisheries. In July 2019 the unemployment rate in Grays
Harbor County, where the City is located, was 7.1%
which is nearly twice that of the seasonally adjusted
national average of 3.6%.2 The average annual wage in
2017 was less than $40,000.00 3. The rental vacancy
rate hovers around 6%, a low rate was recognized as
early as 1992 as an indicator of corresponding reduced
availability of housing to very-low income people.4
2

https://esd.wa.gov/labormarketinfo/monthly-employment-report

3

https://esd.wa.gov/labormarketinfo/county-profiles/grays-harbor

4

https://www.huduser.gov/portal//Publications/pdf/HUD006102.pdf

4
Recently released data shows that over 30% of Grays
Harbor County residents who are sheltered experience
at least one “housing problem” (defined as incomplete
kitchen facilities, incomplete plumbing facilities, more
than 1 person per room, or a cost burden greater than
30% of income).5
Although the annual point in time survey taken
pursuant to state law indicates a slight reduction in
total number of unsheltered and homeless persons in
Grays Harbor County over the past five years,6 the City
of Aberdeen witnessed a significant increase at a single
parcel in that same period. This encampment grew
despite city efforts to remove unpermitted campers, as
explained in local newspaper accounts of the City’s
efforts to abate environmental and public nuisance
conditions there7.

5

https://www.huduser.gov/portal/datasets/cp.html

6

See generally, https://www.commerce.wa.gov/servingcommunities/homelessness/annual-point-time-count/; According to
the 2019 point in time survey, there are 141 unsheltered and
homeless persons in Grays Harbor County; down the number five
years earlier in the 2014 survey (162 persons). The data does not
address how many of these are located in the City of Aberdeen.
7

https://www.thedailyworld.com/news/homeless-camped-alongchehalis-told-to-bug-out-again/ “up to 75 people there now” and
http://www.thedailyworld.com/news/aberdeen-deals-with-falloutfrom-riverfront-camp-restrictions/ “so far 108 people living along
the riverfront”

5
II.

Aberdeen
Property

Experience:

River

Street

A. Background
Since the decision below, the City has faced two
separate suits in the Western District of Washington
(Monroe, et al. v. City of Aberdeen, et al., 3:18-cv-05949RBL (2019); and Aitken, et al v. City of Aberdeen, 3:19cv-05322-RBL (2019)) in its attempt to address
conditions of the largest unpermitted homeless
encampment here.
In 2018, Aberdeen’s City Council (“City Council”)
approved the purchase of a privately held undeveloped
parcel of property. (Appendix A – Parcel Map) The
parcel is just over eight acres; it is bordered by the
Chehalis River, an unfenced commercial railyard, and
two family-owned light industrial properties. At its
narrowest point it is approximately 250 feet wide
between the river and the commercial railyard; terrain
is uneven and covered with unmanaged vegetation. The
only legal point of access is via an unimproved city
right-of-way adjacent to a designated railroad crossing.
There is no utility service (water, sewer, trash) to the
property.
The property was purchased in an attempt to
address repeated “nuisance” conditions including an
unpermitted homeless encampment, and related health
safety and public welfare concerns. The property had
most recently been abated while in private ownership
in 2016, when approximately 75 people were removed
at the property owners’ request. Two years later the
property owner was either unable or unwilling to take

6
sufficient action to abate the situation, and so the City
and the landowner reached an agreement and the City
purchased the property.
When the sale closed in August 2018, there were
over 100 people camping on the site. Since there are no
utility services, people “disposed” of human waste
either by digging holes near their shelters or utilizing
an open bucket that was later emptied untreated into
the surrounding brush areas or the Chehalis River.
Law enforcement, fire, and medical responders all
noted that when they were dispatched to the property
they had to navigate uneven terrain with the waste
pits, and grounds which also hid sharps and other
dangers.
People camping at the site also had
unpermitted fires and unsafe heating arrangements
commonly resulting in fire damage; fortunately, there
were no deaths.
There were also multiple reports of individuals
regularly driving and walking across the tracks rather
than detouring the approximately 400 yards to the
right-of-way adjacent to the designated railroad
crossing. The railroad company reported multiple
instances of damage and/or vandalism to railcars,
switching equipment, and the tracks. Railcars carry a
variety of cargo, including methanol which is a highly
flammable material and can be explosive under certain
conditions; a methanol explosion had the potential to
destroy the unpermitted homeless encampment, nearby
homes and businesses, an important transportation
corridor, and create extensive environmental impacts.
Fortunately, there has been no such large-scale
catastrophic event.

7
However, there was a significant personal tragedy
when one person trespassed through the railyard to
access the encampment. As she crawled under a
railcar, it began to move. Her legs were caught
between the moving car and the tracks. Her screams
brought Aberdeen police officers who were at the site
responding to a different call; they were able to place
tourniquets and stabilize her until the Aberdeen
emergency medical responders arrived. She was
airlifted to Seattle some 100 miles away. She lost both
legs but survived the tragic occurrence.8 Pedestrians
continued to trespass across the tracks to the
unpermitted encampment.
The sale to the City was concluded in mid-August
2018. There were over 100 people camping on the
property at the time. As an interim measure, Aberdeen
provided portable toilets and garbage service and
allowed people to continue to camp at the site while
assessing alternatives for removing the unpermitted
campers from the property. (Appendix B – River Street
Photographs)
As the City was conducting initial talks with the
county and non-governmental service providers, the
Martin decision was announced. Aberdeen’s mayor
allowed the campers to remain on the property through
the winter months to provide some consistency to the
campers, and to provide an opportunity to clarify the
impact of Martin on Aberdeen’s legislative and policymaking process.

8

http://www.thedailyworld.com/news/womans-legs-severed-bytrain-in-accident-near-aberdeen-homeless-camp/

8
B. Monroe, et al. v. City of Aberdeen, et al.
In its attempt to provide some clarity of who was
allowed to be at the River Street property, Aberdeen
imposed limitations on visitors to the property. The
City was sued, and accused of attempting to hide or
isolate the campers in violation of federally protected
Constitutional rights. (Monroe, Docket (“Dkt.”) 1).
Aberdeen entered a Stipulated Order on the matter
(Id., Dkt. 28), which included establishing rules for
campers and visitors to the property.
C. Aitken, et al. v. City of Aberdeen
With the Martin decision, and in recognition of the
shortage of available shelter space within city limits,
Aberdeen halted enforcement of its public camping
ordinance. The City then reviewed the language and
City Council introduced and passed an ordinance
conservatively design to comply with Martin
limitations. The new ordinance entirely eliminated
criminalization of public camping and established a
class of city-owned property upon which Aberdeen will
not enforce the ordinance at all when there is no
available public shelter (see generally, Aberdeen
Municipal Code (“AMC”) 12.46 (2019)). That class of
property is “[p]ortions of any street right of way that
are not expressly reserved for vehicular or pedestrian
travel” (AMC 12.46.040.A.4 and AMC 12.46.045.B).
Previously, City Council had introduced and passed
a “Sit-Lie” ordinance restricting sitting and lying in a
specific area of the greater downtown zone to the hours
of 11:00pm and 6:00 am (see generally, AMC 12.41
(2018)).
That ordinance was challenged via

9
referendum but failed to obtain the 604 valid registered
voter signatures necessary to repeal the ordinance.
Since at least 2006, Aberdeen has codified its
prohibition on obstruction of sidewalks without a
permit (AMC 12.44.030). It is the only of the three
ordinances challenged under Aitken that both carries
criminal penalties and is to be strictly enforced.
In April and May of this year, the City Council
brought forward and passed an ordinance closing the
River Street property to all public access in
consideration of the life safety, public safety and public
welfare considerations described above (Aberdeen
Ordinance 6645 (May 8, 2019)).
Citing to Martin, and asserting prospectively that
taken together the public camping, sit-lie, and
obstruction of sidewalk ordinances would have the
effect of banishing homeless persons from Aberdeen,
the City was again sued for its efforts to abate
conditions at the River Street property (see generally,
Aitken, Dkt. 1). This time the claim was filed before
the ordinance closing the property to all public access
was passed. Closure of the property was scheduled
after the date Aberdeen had initially agreed to allow
the campers to remain at the River Street property.
(Appendix C – Ordinance 6645).
The plaintiffs asserted that Martin required
Aberdeen to allow homeless and unsheltered persons to
remain on the parcel of public property that they chose.
(Id., pp 10-18). The Martin court facially disclaims a
requirement that the City establish a shelter (Martin,
at 589, internal quotes omitted) (“we in no way dictate

10
to the City that it must provide sufficient shelter for
the homeless”). Nevertheless, Martin then establishes
criteria by which few cities, and certainly not
Aberdeen, can practically do otherwise (“[cities] must
either undertake an overwhelming financial
responsibility to provide housing for or count the
number of homeless individuals within their
jurisdiction every night, or abandon enforcement of a
host of laws regulating pubic health and safety.” Id., at
594-595, Smith, (dissenting)). The homeless population
of Aberdeen includes a transient population; this factor
throws into disarray whether Aberdeen, or any city,
can ever clearly articulate how much shelter space is
needed at any given time which Martin insists a city
must identify before it can enforce public camping laws.
The City of Aberdeen spent $440,000.00 in the
purchase, management and abatement of the River
Street property. By October 15, 2019 the City will have
spent another $85,000.00 to establish and operate a 3month temporary alternative shelter location dedicated
to public camping for up to 60-70 people, which has
been at capacity for its entire existence. These
expenditures of financial and human resources have
impacted the ability of the City to maintain other
public goals.
Aberdeen specifically mapped out those locations in
the greater downtown area that met the requirements
of AMC 12.46.045.B where enforcement was expressly
prohibited when there is not available overnight
shelter (Appendix D – Map of Identified Camping
Areas). The area was limited to the downtown area
based on criteria to which plaintiffs agreed, including

11
proximity to social service providers, and yet plaintiffs
refused to accept the map as sufficient for their needs,
and instead demanded the City identify a particular
parcel for their exclusive use (Aitken, Dkt. 43).
The court initially enjoined enforcement of
Aberdeen’s public camping, sit-lie, and sidewalk
obstruction ordinances while the City was allowed to
close the dangerous property, despite the fact that we
had expressly designated sidewalk areas where public
camping is allowed when alternative overnight shelter
is not available (Aitken, Dkt. 52). Recently, the
injunction was lifted as a result of Aberdeen’s
demonstration of reasonable exercise of its police
powers (Id., Dkt. 69).
In this instance, plaintiffs’ interpretation of Martin
resulted in Aberdeen being forced to focus its scarce
resources not on actually responding to the City’s
recognized homelessness crisis, but instead on
defending its reasonable legislative response in court.
For Aberdeen, Martin is not the judicial shield
interpreting the Constitution and laws, it is wielded as
a sword by which the legislative and police authorities
of the city are hewn away and held captive by
unelected authorities.
Aberdeen is well aware of the need to humanely and
compassionately address unsheltered and homeless
residents’ needs. In its attempt to protect these
vulnerable persons, however, Martin manages only to
reduce the options available to communities such as
ours.

12
III.

Martin does not clearly define “available
overnight shelter”

Aberdeen has no public indoor overnight shelter,
and the fewer than 100 available shelter beds that are
located here may or may not comply with Martin,
because the majority of those beds are in faith-based
shelters. Each of the shelter locations have restrictions
related to gender, familial or marital status, and/or
length of stay requirements. Like the shelters in
Martin, the shelters in Aberdeen have religious
requirements and may exclude individuals for noncapacity related reasons, such as behavioral issues.
Martin suggests that in such circumstances, “as a
practical matter, no shelter is available.” Martin, at
610.
Likewise, Martin does not address where such
shelter space may be located in order to be “available”.
The City of Aberdeen is immediately adjacent to the
City of Hoquiam. However, the City cannot use the
possibility of sheltering in Hoquiam because it is not
within the City’s jurisdiction. Reliance on regionally
available services in partnership with other local
governments should be allowed, yet it appears
foreclosed by the prohibition on a city from enforcing its
laws where it does not have the shelters available. If
nothing else, it subjects cities who might otherwise rely
on regional shelters to possible risk of civil rights
violations if Martin requires that it have shelter space
within its boundaries.
Therefore, under Martin, there is no current
scenario under which the City may criminally enforce
public camping restrictions because no overnight

13
shelter is unrestrictedly “available” to our entire
unsheltered or homeless population. This necessarily
requires Aberdeen to allow public camping somewhere
regardless of the impact to the community as a whole,
or the impact to scarce City resources.
In recognition of the limitations on “available”
shelter beds, even before Martin, Aberdeen had not
strictly enforced its public camping ordinance; when
Martin was announced Aberdeen could not enforce its
camping ordinance at all.
IV.

Martin has impermissibly expanded
prohibitions against criminalization to
generally applicable protections of public
health and welfare

Justice Berzon’s concurrence denying an en banc
hearing notes that “only municipal ordinances that
criminalize sitting, sleeping, or lying in all public
spaces … violate the Eighth Amendment.” (Id., at 589
quoting 902 F.3d at 1035, emphasis in original).
Aberdeen’s law now imposes only civil penalties for
public camping “not to exceed $25.00” (AMC 12.46.050)
consistent with state law which also identifies rulemaking authority to describe judicial discretion (Wash.
Rev. Code § 7.80.130.2 (2002)); identifies a class of
property where public camping is lawful when there is
no available shelter; and, defines what is meant as
“available shelter”. Nonetheless, the Aitken plaintiffs
expanded Martin to prohibit even these limited civil
sanctions and unrelated public safety ordinances noted
above.

14
The Martin rationale implicating Eighth
Amendment protections for criminal penalties is
“circumscribed … in three ways: limits the kinds of
punishment; proscribes punishment grossly
disproportionate to the severity of the crime; and,
imposed substantive limits on what can be made
criminal and punished as such [with last limit to be
applied sparingly].” Ingraham v. Wright, 430 U.S. 651
(1967).
Ingraham noted that Cruel/Unusual
protections are limited to criminal penalties; (Id., at
667-69). While 26 years later Austin noted that Eighth
Amendment protection “cuts across the division
between civil and criminal” (Austin v. United States,
509 U.S. 602, 609-10 (1993)); but only that monetary
penalties are subject to an “excessive fines” analysis
(Id.).
In Halper [United States v. Halper, 490 U.S. 495
(1989)], we focused on whether “the sanction as
applied in the individual case serves the goals of
punishment.” 490 U. S., at 448. In this case,
however, it makes sense to focus on §§881(a)(4)
and (a)(7) as a whole. Halper involved a small,
fixed-penalty provision, which “in the ordinary
case ... can be said to do no more than make the
Government whole.” Id., at 449. (Id., 622)
Martin should not now expand Eighth Amendment
protections such that no laws may ever be applicable to
unsheltered persons.

15
V.

Martin
has
created
unintended
consequences including appropriating of
public property for personal use; and
sh ifting resp on sib ilit y f or loc al
management of homelessness to the federal
judiciary.
A. Martin has encouraged appropriation of
public property by the homeless.

Currently, Aberdeen is also facing the challenge of
Martin’s overbroad language impacting public camping
not only on city-owned public property but also on
public property in general within Aberdeen’s
jurisdiction. Martin’s proscription against enforcing
anti-camping laws on “public property” when shelter
space is unavailable indicates that Aberdeen may not
take action when the homeless occupy any publicly
owned property, including property owned by other
public agencies such as Grays Harbor County, Grays
Harbor Transit, and the Port of Grays Harbor, just to
name a few jurisdictions that own property in the City
of Aberdeen.
Martin has created considerable uncertainty as to
the enforceability of trespass ordinances and other laws
that protect such property from unwanted
appropriation by homeless campers who refuse to leave
said property and who claim that enforcement of such
laws would violate their civil rights as set forth in
Martin.
Based on Aberdeen’s experience, Martin is being
cited not only to prohibit criminal laws against
camping or remaining on public property, but also for

16
any attempt to exercise police powers to maintain
public safety and welfare, including through civil
means. Aitken managed to sustain a complaint
regarding public camping and sit-lie ordinances that
had only civil consequences. Martin creates this
ambiguity by leaving unresolved the scope of its
holding concerning the ability to enforce laws during
times that shelters are not available for the homeless
population.
Martin also fails to answer or define what
constitutes criminalizing status as opposed to enforcing
criminal laws based on actions. Prohibitions of
camping in specific locations are generally applicable
laws that do not criminalize status or the presence of
the homeless in the community but are designed to
assure that public spaces are used for their intended
purposes. This means that parks are available for
recreation for all inhabitants, parking lots are available
for motorists to use.
Under Martin, local governments with limited
shelter space have seen parking lots transformed into
encampments that remain on a semi-permanent basis.
Those who set up these encampments refuse to leave,
depriving the public from using that property for its
intended purpose. Campers refuse to leave even
dangerous locations, like the River Street property in
Aberdeen, unless shelter beds are provided at a
location of their choosing. Shelter beds outside the city
limits are not considered as “available” and are rejected
by the homeless, even if the city offers assistance.

17
Similar to the settlements in Southern California,
due process protections must be built into temporary
encampments established by cities like Aberdeen who
may seek to provide mitigation and temporary shelter
on public property. This interpretation of Martin
implies that by giving a homeless person a place to stay
for the night, they obtain property rights permitting
them to remain on the public’s property until notice
and an opportunity to be heard are provided. Cf.
Catron v. City of St. Petersburg, 658 F.3d 1260 (11th
Cir. 2011) (City’s homeless residents had a
constitutionally protected liberty interest to be in parks
or on other city lands of their choosing that were open
to the public generally.) Although well intentioned,
this results in removing from the public fisc whatever
location the homeless use as an unauthorized
encampment by imbuing them with a quasi-property
interest merely because they are present, regardless of
dangers that their presence may create to themselves
or others.
Homeless and unsheltered persons in Aberdeen and
regionally have appropriated public properties with
designated public uses, which denies the community at
large use of those properties for their intended
purpose.9 In instances of appropriation of undeveloped
property, it restricts development by the City, and/or
results in claims that the City is attempting to
ghettoize the population and remove them from areas
where social services are available. In seeking

9

Daily Olympian, Homeless camps sprouting, growing throughout
downtown Olympia, https://www.theolympian.com/news/local/
article220251925.html.

18
locations for mitigation sites to shelter the homeless,
cities are forced to shift property from its intended use
to establish temporary encampments or shelters.10
In the Aitken litigation, the court directed the
parties to “negotiate a suitable ... place” (Aitken, Dkt.
40, p. 7, lines 8-9), thereby interpreting that the city
was required to identify and dedicate specific parcels,
while at the same time stating “I’m not urging you -- or
the city to deed a parcel of property from the public
fisc.” (Aitken, Dkt. 40, p. 9, line 24-25). In commenting
on the homelessness crisis around the country, the
Aitken court acknowledged the issue and then stated
very clearly “People under our economic system are not
permitted to appropriate property for their own
domain.” (Id., p. 15, lines 20 – 22) Unfortunately, this
is precisely what homeless people are doing in cities in
the region, and are attempting to do in Aberdeen.
B. Martin is causing a shift in
responsibility for local policy and
management to the federal judiciary.
One of the consequences of Martin is to incentivize
civil rights litigation by homeless individuals who
argue it is a violation to seek to remove them from
inappropriate locations under trespass and anticamping ordinances unless there is a shelter bed
provided.
Homeless or unsheltered persons are
provided notice that a specific parcel of public property
10

KBKW, City of Aberdeen Seeks Grays Harbor Transit Property
for Homelessness Mitigation Site, https://kbkw.com/city-ofaberdeen-seeks-grays-harbor-transit-property-for-homelessnessmitigation-site/

19
will be cleared for public health and welfare
considerations and in proper exercise of local police
powers.
Aberdeen’s experience is that those persons then
cite Martin to shift local decision-makers’ legislative
authority to the federal judiciary, seeking to replace
police powers with injunctive authority to meet the
plaintiffs’ policy objectives. This allows plaintiffs, like
in Aitken and Monroe, to seek court injunctions against
enforcement of laws, putting a federal judge in the
unenviable position of determining how homeless
encampments are addressed and potentially in the role
of formulating homelessness policy for local
government.
The Aitken court addressed the issue head-on,
stating
“What you’re asking is for me to somehow seize
the purse and require the political branches of
government in Aberdeen to alter the situation to
provide a safer, more accommodating place. In a
democracy the political branches have the power
of the purse. They have the police power for
ensuring safety and health.”
And the plaintiffs’ responded that the court “…ha[s]
the power to order them to do that. But you [also] have
the power to tell them, ‘You can’t kick these people
out’” [of a self-selected and dangerous location].
(Aitken, Dkt. 40, p. 5. Line 5-19). In other words, the
Aitken plaintiffs expressly demanded the court to
replace local exercise of police authority with the
court’s judgment.

20
Such a role is more properly left to elected
representatives who can assess local circumstances,
available resources and develop mitigation strategies
to address the consequences of homelessness, the
attendant economic issues, substance abuse problems,
mental health issues and other maladies associated
with this population. Instead of empowering local
governments to address these situations, Martin
curtails local authority and prevents locally developed
responses.
The concerns expressed by Judge Smith in his
dissent in Martin, at 595, n. 12 (dissent to denial of
rehearing en banc), have been echoed by Judge
Leighton in the Aberdeen cases. At the May 7, 2019
Aitken hearing, he said “You know, that’s the problem,
the political branches of government at the national
level, at the state level, and at the local level are
forcing the judiciary to run the country. And that’s
nonsense. That is un-American.” (Aitken, Dkt. 40, p. 18,
lines 16 – 20). The Courts should not control resources
or set social policy and Martin ties the hands of those
elected officials with whom police power is invested.
CONCLUSION
For the reasons noted above, amicus curiae City of
Aberdeen, Washington respectfully requests that this
Court grant the petition for review.

21
Respectfully submitted,
MARY PATRICE KENT
Corporation Counsel
Counsel of Record
Office of Corporation Counsel,
City of Aberdeen
200 East Market Street
Aberdeen, WA 98520
(360) 537-3233
(360) 532-9137 (fax)
pkent@aberdeenwa.gov
JOHN EDWARD JUSTICE
JEFFREY SCOTT MYERS
Law, Lyman, Daniel, Kamerrer
& Bogdanovich, P.S.
Post Office Box 11880
Olympia, WA 98508-1880
(360) 754-3480
(360) 357-3511 (fax)
jjustice@lldkb.com
jmyers@lldkb.com
Counsel for Amicus Curiae
City of Aberdeen, Washington
in Support of Petition of City of Boise
September 24, 2019

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Parcel Map . . . . . . . . . . . . . . . . . . App. 1
Appendix B River Street Photographs . . . . . . . App. 2
Appendix C Ordinance 6645 . . . . . . . . . . . . . . . App. 4
Appendix D Map of Identified Camping Areas
(fold-out exhibit) . . . . . . . . . . . . . App. 10

App. 1

APPENDIX A
Parcel Map

App. 2

APPENDIX B
River Street Photographs

App. 3

App. 4

APPENDIX C
Ordinance 6645
[Dated May 8, 2019]
BILL # 19-05
ORDINANCE NO.6645
AN ORDINANCE PROHIBITING PUBLIC
ACCESS TO RIVER STREET PROPERTY FOR
LIFE SAFETY, PUBLIC SAFETY, AND PUBLIC
WELFARE REASONS
WHEREAS, the City Council for the City of Aberdeen
is responsible to undertake Ordinances necessary for
the municipal government and management of affairs
of the City, including to control and improve properties
of the City; and
WHEREAS, the City Council is responsible to regulate
the common areas of the City; and,
WHEREAS, the City Council is responsible to provide
and enforce regulations for the protection of health,
cleanliness, peace and good order of the City; and
WHEREAS, life safety, public safety, and public
welfare considerations related to public access to
property owned by the City since August 2018 require
further analysis of use and access to the property.
NOW, THEREFORE,

App. 5
BE IT ORDAINED BY THE MAYOR AND CITY
COUNCIL OF THE CITY OF ABERDEEN:
SECTION 1. RIVER STREET PROPERTY
DEFINED. The following described real property,
consisting of approximately eight (8) acres, as also
shown on Exhibit A attached to this Ordinance, is
owned in fee simple by the City of Aberdeen:
Tax Parcel # 029901800101:
Lot 1, Tract 18, Aberdeen Tide and Shore Lands,
as described in that certain Statutory Warranty
Deed, dated May 6, 1980, and recorded May 19,
1980, as Auditor’s File No. 166816, records of
Grays Harbor County;
EXCEPT that portion conveyed to Grays Harbor
County and Puget Sound Railway Company by
Deed recorded April 23, 1909, and under
Auditor’s File No. 40019, Volume 101 of Deed,
page 405, records of Grays Harbor County;
ALSO EXCEPT the following described
property:
Beginning at the intersection of the Inner
Harbor Line of Tract 17, Aberdeen Tide and
Shore Lands, with the Southerly right-of-way
line of the Oregon Washington Railroad and
Navigation Company, as established by Decree
of Superior Court of the State of Washington for
Grays Harbor County, as recorded in Volume 29
of Miscellaneous, page 472, records or Grays
Harbor County;
Thence South 51°05’46” West along said “Inner
Harbor Line” a distance of 1025 feet;
Thence North 36°42’47.9” West parallel to the
Southwesterly line of platted Broadway within

App. 6
the Plat of Weatherwax and Benn’s Addition to
the City of Aberdeen, a distance of 270 feet,
more or less, to the Southerly line of said Oregon
Washington Railroad and Navigation Company;
Thence Easterly along said Southerly line a
distance of 1120 feet, more or less, to the point of
beginning;
Situate in the County of Grays Harbor, State of
Washington.
SECTION 2. FINDINGS OF LIFE SAFETY,
P UB LIC SAFETY, PUBLIC WELFA R E
CONCERNS.
1. Location:
The undeveloped River Street
property is located on a strip of land between the
Chehalis River and the Poynor Rail Yard, at one
point only 250 feet between the River and the
active commercial Rail Yard. Rail Yard
operators have reported that many people walk
across the tracks, including when rail cars are
moving; such activity has led to injuries
including a woman losing both her legs in a
tragic accident as she was crossing under a rail
car immediately adjacent to the River Street
property. Other reports include that vehicles
driving to or from the River Street property have
damaged rail switching equipment which could
lead to widespread and catastrophic incidences,
especially if a train carrying explosive methanol
were to derail.
2. Sanitation and Utilities: There is no permanent
connection to public utility services or sanitary
systems. The lack of sanitary systems and
utilities further complicates maintaining basic

App. 7
hygiene and health practices, exacerbating
existing health conditions and increasing
pressure on the overtaxed public health system.
3. Access: Access to the property is limited to an
undeveloped City right of way. Public safety
agencies regularly respond to medical, fire and
police calls at the River Street property, and
they have only one point of ingress and egress.
Once on the property, if calls involve entering
the property itself responders must navigate
overgrown and uneven grounds which are
peppered with physical and medical hazards.
4. Zoning. The property is zoned General
Commercial. Residential uses in General
Commercial are limited to “upper floors of
buildings” (AMC 17.36.020.M); individual
residences or shelters at ground level are neither
permitted nor conditional uses (AMC 17.36).
There are no structures on the River Street
property which meet building or construction
codes.
5. FINDING: In consideration of the above the City
Council finds the River Street property in its
current condition to be unfit for either human
habitation or open public access.
SECTION 3. EXERCISE OF POLICE POWERS IN
LIGHT OF LIFE SAFETY, PUBLIC SAFETY, AND
PUBLIC WELFARE CONCERNS.
1. It is the purpose of this Ordinance to prevent
harm to the health or safety of the public and to
promote the public health, safety and general
welfare of all residents of the City of Aberdeen.

App. 8
2. Therefore, in exercise of its police powers, and
consistent with Resolution # 2019-02 and
Ordinance 6641, and recognizing that any
license for individuals to remain on the River
Street property expire on May 1, 2019 and will
not be extended, the City Council of the City of
Aberdeen prohibits all public access to the River
Street property as of the effective date of this
Ordinance.
SECTION 4. SEVERABILITY.
Should any section,
subsection, paragraph, sentence, clause or phrase of
this Ordinance or its application to any person of
situation be declared unconstitutional or invalid for
any reason, such decision shall not affect the validity of
the remaining portions of this Ordinance or its
application to any other person or situation.
SECTION 5. PUBLICATION BY SUMMARY. The
Finance Director, or in his or her absence the
Corporation Counsel, is authorized and directed to
publish a summary in lieu of this Ordinance.
SECTION 6. EFFECTIVE DATE.
This Ordinance
shall take effect upon its passage, signing, and
publication, and not before June 10, 2019.
PASSED AND APPROVED this 8th day of May, 2019.
/s/
Erik Larson, Mayor
ATTEST:
/s/
M. Patrice Kent, City Clerk
(Corporation Counsel)

App. 9
ORDINANCE NO. 6645
AN ORDINANCE PROHIBITING PUBLIC
ACCESS TO RIVER STREET PROPERTY FOR
LIFE SAFETY, PUBLIC SAFETY, AND PUBLIC
WELFARE REASONS
SECTION 1.
SECTION 2.
SECTION 3.

SECTION 4.
SECTION 5.
SECTION 6.

River street property defined. Tax
parcel # 029901800101:
Findings of life safety, public
safety, public welfare concerns.
Exercise of police powers in light of
life safety, public safety, and public
welfare concerns.
Severability.
Publication
by summary
authorized.
Effective date. This Ordinance
shall take effect upon its passage,
signing, and publication, and not
before June 10, 2019.

PASSED AND APPROVED this 8th day of May,
2019.
/s/Erik Larson, Mayor
/s/Patrice Kent, City Clerk (Attest)

App. 10

APPENDIX D
Map of Identified Camping Areas
(fold-out exhibit)
See next page for Fold-out Exhibit

E

E

A!

A!

E

Legend

A!

3rd @ Park

E

Alder @ 3rd

State @ Washington

Heron @ Washington

290

145

Wishkah @ Washington

Market @ Washington

1st @ Washington

2nd @ Washington

E

E

E

A!

A!

State @ Park

Heron @ Park

Wishkah @ Park

Market @ Park

1st @ Park

2nd @ Park

0

Park @ River

A!

A!

Alder @ River

State @ Alder

Heron @ Alder

Wishkah @ Alder

Market @ Alder

1st @ Alder

2nd @ Alder

290 Feet

E

A!

E

A!

A!

A!

A!

AMC 12.46 not enforce - 174,500 sf

Sit Lie Boundaries

Downtown Business District

3rd @ Washington

Washington @ River

A!

A!

E

E

A!

A!

E

A!

State @ Michigan

Heron @ Michigan

Wishkah @ Michigan

Market @ Michigan

1st @ Michigan

2nd @ Michigan

3rd @ Michigan

Michigan @ River

A!

A!

A!

E

A!

A!

E

A!

State @ Jefferson

Heron @ Jefferson

Wishkah @ Jefferson

Market @ Jefferson

1st @ Jefferson

2nd @ Jefferson

E

A!

E

E

A!

State @ M

Heron @ M

Wishkah @ M

Market @ M

1st @ M

2nd @ M

3rd @ M

M @ River

A!

E

A!

E

E

E

A!

Heron @ L

Wishkah @ L

Market @ L

1st @ L

2nd @ L

3rd @ L

L @ River

E

A!

E

E

A!

E

E

State @ K

Heron @ K

Wishkah @ K

Market @ K

1st @ K

2nd @ K

3rd @ K

K @ River

A!

A!

A!

E

E

E

E

E

E

Broadway @ State

Heron @ Broadway

Wishkah @ Broadway

Broadway @ Market

1st @ Broadway

Broadway @ 2nd

Broadway @ 3rd

Broadway @ River

A!

A!

A!

E

E

E

E

A!

State @ I

Heron @ I

Wishkah @ I

Market @ I

1st @ I

2nd @ I

3rd @ I

River @ I

E

A!

E

DOWNTOWN ABERDEEN

3rd @ Jefferson

Jefferson @ River

A!

A!

A!

E

A!

E

E

A!

A!

State @ H

Heron @ H

Wishkah @H

Market @ H

1st @ H

2nd @ H

3rd @ H

River @ H

H North of River

E

E

E

E

E

E

E

A!

A!

Wishkah @ G

Market @ G

1st @ G

2nd @ G

3rd @ G

River @ G

State @ G

Heron @ G

E

E

E

A!

A!

E

State @ F

Heron @ F

E

Market @ E

1st @ E

1st @ E

2nd@ E

2nd @ E

Randall @ E

A!

E

Heron @ Kansas

Wishkah @ Kansas

Wishkah @ Fuller Way

A!

E

E

E

E

E

.

Market @ Fuller Way

Wishkah @ F

E

Market @ F

1st @ F

2nd @ F

F @ 3rd

F @ Arnold

River @ F

E

E

E

A!

E

